  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




   SALARY AND NONSALARY COSTS
CLAIMED BY THE UNIVERSITY OF TEXAS
  SOUTHWESTERN MEDICAL CENTER
         WERE ALLOWABLE


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                   Patricia M. Wheeler
                                                 Regional Inspector General

                                                         August 2013
                                                        A-06-11-00018
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET, R OOM 632
                                                                                  D ALLAS , TX 75242

August 29, 2013



Report Number: A-06-11-00018

Mr. Arnim Dontes
Executive Vice President of Business Affairs
University of Texas Southwestern Medical Center
5323 Harry Hines Boulevard
Dallas, Texas 75390-9013

Dear Mr. Dontes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Salary and Nonsalary Costs Claimed by the University of
Texas Southwestern Medical Center Were Allowable. We will forward a copy of this report to
the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
https://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-06-11-00018 in all correspondence.

                                             Sincerely,



                                             /Patricia M. Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Arnim Dontes


HHS Action Official:

Ms. Lorraine M. Trexler, CPA, Director
Division of Financial Advisory Services
OAMP, OALM, OD
National Institutes of Health
6011 Executive Boulevard, Room 549-C
Bethesda, MD 20892-7663
                                               INTRODUCTION

    The University of Texas Southwestern Medical Center claimed allowable costs for HHS-
    funded grants, contracts, and other agreements in accordance with Federal regulations and
    applicable guidelines.

WHY WE DID THIS REVIEW

Because the number of instances in which institutions have inappropriately charged
administrative and clerical expenses to Federal grants and contracts has increased, the Office of
Inspector General (OIG) is reviewing Universities’ claims for these types of expenses. We chose
the University of Texas Southwestern Medical Center (the University) because it received more
than $406 million in Federal funds for grants, contracts, and other agreements with
organizational components of the Department of Health and Human Services (HHS) during the
period October 1, 2008, through September 30, 2010 (fiscal years (FY) 2009 and 2010). 1

OBJECTIVE

Our objective was to determine whether the University claimed costs for HHS-funded grants,
contracts, and other agreements in accordance with Federal regulations and applicable
guidelines.

BACKGROUND

The University of Texas Southwestern Medical Center

The University is an academic medical center and research institution located in Dallas, Texas.
During the period October 1, 2008, through September 30, 2010, the University claimed
reimbursement for $194,434,141 in costs incurred under 1,463 grants, contracts, and other
agreements with organizational components of HHS.

Federal Requirements for National Institutes of Health Grantees

In accepting grants awarded by HHS and other Federal agencies, the University agreed to
comply with regulations governing the use of Federal funds and ensure that costs charged to
those grants, contracts, and other agreements were allowable under Federal cost principles. 2
These cost principles apply both to direct costs, costs that are incurred solely for the performance
of a particular project, and to facilities and administrative (F&A) costs, indirect costs that are

1
  We requested that the University provide us with a transaction listing of all salary and nonsalary administrative and
clerical expenses charged directly to HHS grants, contracts, and other agreements during our audit period. Instead,
the University provided all salary and nonsalary expenses charged directly to HHS grants, contracts, and other
agreements during our audit period. As a result, we reviewed those expenses.
2
 2 CFR part 220 (formerly the Office of Management and Budget Circular A-21), Cost Principles for Educational
Institutions (the cost principles).



Salary and Nonsalary Costs Claimed by University of Texas Southwestern Medical Center (A-06-11-00018)
                                                       1
incurred for objectives shared by the project and the institution and which, therefore, cannot
readily and specifically be identified with a particular project. 3

In addition, the cost principles require that, to be allowable, costs must be reasonable, be
allocable, conform to any exclusions or limitations set forth in the cost principles or sponsored
agreements, and be given consistent treatment through the application of generally accepted
accounting principles (2 CFR part 220, Appendix A, section C.2).

Each college or university is responsible for ensuring that costs charged to Federal grants,
contracts, and other agreements, both direct costs and F&A costs, are allowable under the cost
principles (2 CFR part 220, Appendix A, section C.4.d.1).

The National Institutes of Health (NIH) provides additional guidance through the National
Institutes of Health Grants Policy Statement (Grants Policy Statement). The Grants Policy
Statement provides NIH grantees, in a single document, the policy requirements that serve as the
terms and conditions of NIH grant awards. The Grants Policy Statement also provides general
information and application information and specifies the terms and conditions that apply to
particular types of grants, grantees, and activities that differ from, supplement, or elaborate on
the standard terms and conditions. 4

Award Administration

The University’s Office of Post Award Administration accepts and administers awards on behalf
of the University. The Office of Post Award Administration is responsible for reviewing
transactions proposed by the University’s colleges and departments; the University’s principal
investigators ensure that those transactions fully comply with Federal regulations. In addition,
principal investigators are responsible for all programmatic and administrative aspects of an
award, including the conduct of research or other activity described in an award proposal.

HOW WE CONDUCTED THIS REVIEW

Our audit covered costs claimed for reimbursement for the period October 1, 2008, through
September 30, 2010, totaling $194,434,141 ($83,850,903 in salary expenditures and
$110,583,238 in nonsalary expenditures). We reviewed a random sample of 100 salary
expenditures and a random sample of 109 nonsalary expenditures totaling $3,128,991 ($254,079
in salary expenditures and $2,874,912 in nonsalary expenditures). We limited the audit to grants,
contracts, and other agreements between the University and organizational components of HHS
(i.e., NIH, the Centers for Disease Control and Prevention (CDC), the Food and Drug
Administration (FDA), and the Health Resources and Services Administration (HRSA)).

3
  Educational institutions are reimbursed for F&A costs through a rate or rates negotiated with the Federal
Government. Institutions with significant numbers of federally funded agreements frequently have multiple F&A
rates applicable to different functions, such as research, training, and other institutional activities. The F&A rates
comprise two components: a facilities component and an administrative component. For fiscal years that began on
or after October 1, 1991, the administrative component is limited to 26 percent of modified total direct costs.
4
    The majority of our sample expenditures were for NIH awards.



Salary and Nonsalary Costs Claimed by University of Texas Southwestern Medical Center (A-06-11-00018)
                                                       2
We did not perform an overall assessment of the University’s internal control structure. We
limited our assessment of internal controls to the University’s policies and procedures for
charging costs to Federal awards.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology. Appendixes B and C
contain the details of our salary and nonsalary statistical sampling methodologies.

                                           RESULTS OF AUDIT

The University claimed $3,128,991 in allowable costs for HHS-funded grants, contracts, and
other agreements in accordance with Federal regulations and applicable guidelines. 5




5
  Immaterial errors totaling $1,272, which included $810 of direct costs that were included in the total costs
reviewed and $462 of indirect costs that were not included, were resolved during our audit, and the amounts were
refunded. Additionally, we determined that the errors were isolated and thus not indicators of systematic control
weaknesses in the University’s operations.


Salary and Nonsalary Costs Claimed by University of Texas Southwestern Medical Center (A-06-11-00018)
                                                       3
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered costs claimed for reimbursement for the period October 1, 2008, through
September 30, 2010, totaling $194,434,141 ($83,850,903 in salary expenditures and
$110,583,238 in nonsalary expenditures). We reviewed a random sample of 100 salary
expenditures and a random sample of 109 nonsalary expenditures totaling $3,128,991 ($254,079
in salary expenditures and $2,874,912 in nonsalary expenditures). We limited the audit to grants,
contracts, and other agreements between the University and organizational components of HHS
(i.e., NIH, CDC, FDA, and HRSA).

We did not perform an overall assessment of the University’s internal control structure. We
limited our assessment of internal controls to the University’s policies and procedures for
charging costs to Federal awards.

We conducted fieldwork at the University’s office in Dallas, Texas.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidelines;

    •   reviewed grant announcements, grant applications, and notices of grant awards;

    •   held discussions with University officials in the Office of Post Award Administration and
        the Department of Internal Audit;

    •   reviewed the University’s policies and procedures for identifying and accounting for
        costs claimed directly to Federal grants, contracts, and other agreements;

    •   reviewed the University’s Cost Accounting Standards Board Disclosure Statement (DS-
        2); 6

    •   obtained a list of transactions from the University’s accounting records of salary and
        nonsalary expenditures charged directly to HHS-funded grants, contracts, and other
        agreements during our audit period;

    •   evaluated the documentation in the University’s project files for the sample expenditures
        charged directly to HHS-funded grants, contracts, and other agreements to determine


6
 Educational institutions that receive $25 million or more for their combined sponsored agreements are required to
disclose their cost accounting practices by filing a DS-2. The University submitted a DS-2 to the HHS Division of
Cost Allocation.

Salary and Nonsalary Costs Claimed by University of Texas Southwestern Medical Center (A-06-11-00018)
                                                       4
        whether the charges were allowable in accordance with Federal cost principles and
        applicable guidelines; and

    •   discussed the results of our review with University officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Salary and Nonsalary Costs Claimed by University of Texas Southwestern Medical Center (A-06-11-00018)
                                                       5
          APPENDIX B: SALARY STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of all salary expenses charged directly to HHS grants and contracts for
FYs 2009 and 2010.

SAMPLING FRAME

The University provided us with two spreadsheets of transactions for all salary expenses charged
directly to HHS grants and contracts for FYs 2009 and 2010. We imported the spreadsheets into
a database as one table, which contained 47,265 transactions. We sorted the transactions by
salary amount and removed all negative amounts and amounts less than $100, for a total of 2,825
transactions. As a result, the sampling frame included 44,440 transactions totaling $87,263,561.

SAMPLE UNIT

The sample unit was a transaction.

SAMPLE DESIGN

We used a stratified random sample containing four strata. We divided the sampling frame
based on the following transaction amounts:

                  Transaction Amount                     Number of
   Strata                                                                             Total Dollars
                          Range                         Transactions
    1            Greater than $10,000.00                        7                       $178,230.38
    2           $3,000 through $9,999.99                   10,369                     38,067,275.36
    3           $1,500 through $2,999.99                   17,344                     37,226,752.63
    4            $100 through $1,499.99                    16,720                     11,791,302.89
  Total                                                    44,440                    $87,263,561.26

SAMPLE SIZE

We selected a sample of 100 transactions. The sample size by stratum was:
                      Strata                                     Number of Sample Items
                        1                                                   7
                        2                                                  31
                        3                                                  31
                        4                                                  31
                                                                          100




Salary and Nonsalary Costs Claimed by University of Texas Southwestern Medical Center (A-06-11-00018)
                                                       6
SOURCE OF RANDOM NUMBERS

We used OIG, Office of Audit Services (OAS), statistical software to generate the random
numbers.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sample items in each stratum. After generating the numbers for
each stratum, we selected the corresponding frame items. For stratum 1, we selected all 7
transactions.




Salary and Nonsalary Costs Claimed by University of Texas Southwestern Medical Center (A-06-11-00018)
                                                       7
       APPENDIX C: NONSALARY STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of all nonsalary expenses charged directly to HHS grants and contracts
for FYs 2009 and 2010. The population did not include subrecipient and subcontract
transactions.

SAMPLING FRAME

The University provided us with a spreadsheet and a database with three tables of all nonsalary
expense transactions charged to HHS grants and contracts for FYs 2009 and 2010. We imported
the spreadsheet and database tables into a new database as one table, containing 286,898
transactions.

We identified and removed 71 duplicated transactions, which left 286,827 transactions remaining
in the table. We then sorted the transactions and removed 42,874 transactions that had negative
amounts and amounts less than or equal to $10, which left 243,953 transactions remaining in the
table.

Finally, we removed all transactions with an object code of 440, 483, or 498 (subrecipient and
subcontract transactions), for a total of 5,535 transactions. 7 As a result, the sampling frame had
238,418 transactions totaling $82,348,309.60.

SAMPLE UNIT

The sample unit was a transaction.

SAMPLE DESIGN

We used a stratified random sample containing three strata. We divided the sampling frame
based on the following transaction amounts:

                                                                 Number of
    Strata        Transaction Amount Range                                                     Total Dollars
                                                                Transactions
      1             Greater than $200,000.00                            9                      $2,948,906.00
      2          $1,000.01 through $200,000.00                     13,161                      44,589,888.08
      3            $10.01 through $1,000.00                       225,248                      34,809,515.52
    Total                                                           238,418                   $82,348,309.60



7
  We removed all subrecipient and subcontract transactions because a single transaction can consist of multiple
invoices that include multiple lines. These lines include transactions for salaries, fringe benefits, materials, supplies,
equipment, travel, overhead, indirect costs, and other items that would require an inordinate amount of time to
review.

Salary and Nonsalary Costs Claimed by University of Texas Southwestern Medical Center (A-06-11-00018)
                                                       8
SAMPLE SIZE

We selected a sample of 109 transactions. The sample size by stratum was:

                       Strata                                     Number of Sample Items
                         1                                                   9
                         2                                                  50
                         3                                                  50
                                                                           109

SOURCE OF RANDOM NUMBERS

We used OIG/OAS statistical software to generate the random numbers.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sample items in each stratum. After generating the numbers for
each stratum, we selected the corresponding frame items. For stratum 1, we selected all 9
transactions.




Salary and Nonsalary Costs Claimed by University of Texas Southwestern Medical Center (A-06-11-00018)
                                                       9
